TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                                        RECOVERY ACT


                        Previously Reported Acquisition
                       Concerns That Are Relevant to the
                      American Recovery and Reinvestment
                           Act of 2009 Procurements



                                      September 15, 2010

                              Reference Number: 2010-11-102




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                         HIGHLIGHTS


PREVIOUSLY REPORTED ACQUISITION                       trends identified from TIGTA audits of IRS
CONCERNS THAT ARE RELEVANT TO                         procurements from Fiscal Year 1999 to
THE AMERICAN RECOVERY AND                             June 2009 that present a risk for procurements
REINVESTMENT ACT OF 2009                              funded under the Recovery Act.
PROCUREMENTS                                          WHAT TIGTA FOUND
                                                      TIGTA found several repeat findings or concerns
Highlights                                            that are relevant to procurements funded by the
                                                      Recovery Act. The most prevalent trends
Final Report issued on September 15,                  identified were the recommendations that the
2010                                                  IRS use performance-based contracts and
                                                      fixed-price contracts whenever possible.
Highlights of Reference Number: 2010-11-102           TIGTA also identified trends where the IRS did
to the Internal Revenue Service Deputy                not have sufficient monitoring controls or
Commissioner for Operations Support.                  processes to ensure contractors were meeting
                                                      the procurement’s terms and conditions, the IRS
IMPACT ON TAXPAYERS                                   did not ensure funding was properly controlled
The Internal Revenue Service (IRS) received an        and project costs were not always charged to
appropriation of $203 million in American             the appropriate accounting code, and
Recovery and Reinvestment Act of 2009                 modernization contracts failed to achieve their
(Recovery Act) funds. TIGTA analysis of               objectives or intended benefits.
acquisitions audits conducted from                    The IRS took corrective actions at the time the
Fiscal Year 1999 to June 2009 showed that             original reports were issued to address many of
while the IRS has taken steps to address the          the issues identified in the reports reviewed.
concerns identified in those audits, recurring        The IRS appears to have mitigated risks
problems exist which may put procurements             associated with performance-based contracts.
funded by the Recovery Act at risk. Until the         However, if contract oversight is not operating
IRS implements effective internal controls, it will   effectively, IRS Recovery Act procurements are
be unable to provide assurance that the Federal       at risk that goods and services will not meet the
Government is receiving the best value for its        Government needs at the price and other
Recovery Act procurements and/or that                 contract requirements agreed upon. In addition,
contractors are meeting the procurements’ terms       when fixed-price contract types are not used,
and conditions to deliver goods or services.          generally there is an increased risk to the
WHY TIGTA DID THE AUDIT                               Federal Government that the contract costs are
                                                      not adequately controlled.
The Office of Management and Budget
supplemental guidance for the Recovery Act            In their response to the prior trending report, IRS
requires Federal agencies to determine whether        officials agreed that addressing the two
final action has been taken regarding                 prevalent trends has been challenging but they
weaknesses or deficiencies disclosed by prior         have made significant progress and have
audits and investigations in program areas            identified new initiatives to address other trends.
under which Recovery Act funds are authorized.        IRS officials stated that had TIGTA performed
The guidance also requires that Recovery Act          an analysis of corrective actions implemented,
contracts be fixed-price to the maximum extent        the prior report would more accurately reflect the
possible, acquisitions result in meaningful and       progress the IRS has made.
measurable outcomes, and contracts receive the        WHAT TIGTA RECOMMENDED
appropriate oversight to ensure that contract
goals are met. The overall objective of this          TIGTA did not make any recommendations in
review was to provide observations regarding          this report. However, key IRS management
the applicable procurement findings identified        officials reviewed it prior to issuance and agreed
during a prior TIGTA audit which evaluated            with the facts and conclusions presented.
                                               DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                September 15, 2010


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Previously Reported Acquisition Concerns That
                             Are Relevant to the American Recovery and Reinvestment Act of 2009
                             Procurements (Audit # 201010116)

 This report presents the results of our review of previously reported acquisition concerns that are
 relevant to the American Recovery and Reinvestment Act of 2009 (Recovery Act).1 The overall
 objective of this review was to provide observations regarding the applicable procurement trends
 identified during our prior audit2 that evaluated trends identified from Treasury Inspector General
 for Tax Administration audits of Internal Revenue Service (IRS) procurements from Fiscal Year
 1999 to June 2009 that would also present a risk for procurements funded under the Recovery
 Act. This report is consistent with the Office of Management and Budget guidance3 to identify
 high-risk programs and create quicker turnaround reporting. This review is included in our
 Fiscal Year 2010 Annual Audit Plan and addresses the major management challenge of
 Erroneous and Improper Credits and Payments.
 The Recovery Act provides separate funding to the Treasury Inspector General for Tax
 Administration through September 30, 2013, to be used in oversight activities of IRS programs.
 This audit was conducted using Recovery Act funds.
 We did not make any recommendations in this report. However, key IRS management officials
 reviewed it prior to issuance and agreed with the facts and conclusions presented.
 Copies of this report are also being sent to the IRS managers affected by the report finding.
 Please contact me at (202) 622-6510 if you have questions or Nancy A. Nakamura, Assistant

 1
   Pub. L. No. 111-5, 123 Stat. 115 (2009).
 2
   Procurement Audit Results Indicate Problems Continue to Exist After Corrective Actions Were Implemented
 (Reference Number 2010-10-088, dated September 14, 2010).
 3
   Updated Implementing Guidance for the American Recovery and Reinvestment Act of 2009 (dated April 3, 2009).
               Previously Reported Acquisition Concerns That Are
                     Relevant to the American Recovery and
                    Reinvestment Act of 2009 Procurements


Inspector General for Audit (Management Services and Exempt Organizations), at
(202) 622-8500.




                                                                                 2
                         Previously Reported Acquisition Concerns That Are
                               Relevant to the American Recovery and
                              Reinvestment Act of 2009 Procurements




                                            Table of Contents


Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Recurring Audit Findings Could Pose Risks for
          Recovery Act Procurements ......................................................................... Page 3

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 7
          Appendix II – Major Contributors to This Report ........................................ Page 8
          Appendix III – Report Distribution List ....................................................... Page 9
        Previously Reported Acquisition Concerns That Are
              Relevant to the American Recovery and
             Reinvestment Act of 2009 Procurements




                      Abbreviations

IRS             Internal Revenue Service
OMB             Office of Management and Budget
TIGTA           Treasury Inspector General for Tax Administration
                     Previously Reported Acquisition Concerns That Are
                           Relevant to the American Recovery and
                          Reinvestment Act of 2009 Procurements




                                             Background

Enacted on February 17, 2009, the American Recovery and Reinvestment Act of 2009 (Recovery
Act)1 contained both spending and tax provisions of $787 billion over 10 years designed to
stimulate the national economy by creating and retaining jobs. The Internal Revenue Service
(IRS) is charged with administrating tax law changes2 contained in the Recovery Act. In
April 2009, the IRS received its appropriation of $203 million in Recovery Act funds,3 which
was to be used to implement the necessary tax changes as a result of the Recovery Act
provisions. As of April 29, 2010, the IRS has initiated or is in the process of initiating 26 of the
initial 40 planned procurement actions on Recovery Act program initiatives with a total contract
value of $81.9 million, of which approximately $78.5 million has been obligated. The IRS is
using these Recovery Act funds for procurements to support the reprogramming of its computer
systems, the updating of corresponding tax forms and publications, and its customer services to
assist taxpayers.
The Recovery Act has created specific guidelines and requirements for all contracts funded
under the Act.4 The Office of Management and Budget (OMB)5 has also issued several
supplemental guidance6 documents that outline steps for implementing the Recovery Act and
also clarify the new requirements for processing procurements. The OMB’s guidance includes
the requirement for agencies to determine whether final action has been taken regarding weaknesses
or deficiencies disclosed by prior audits and investigations in program areas under which Recovery
Act funds are authorized. If final action has not been completed, agencies should: 1) expedite
such action to preclude the continuance of such weaknesses or deficiencies in the administration
of programs funded by the Recovery Act or 2) provide an explanation of why such corrective
actions cannot or should not be taken in the administration of programs funded by the Recovery
Act.


1
  Pub. L. No. 111-5, 123 Stat. 115 (2009).
2
  The Recovery Act included more than 50 tax law provisions that the IRS is charged with administering. These tax
changes included refundable credits, such as the Making Work Pay and First-Time Homebuyer Credits.
3
  This appropriation amount included $80 million for the Health Coverage Tax Credit program and $123 million for
supporting tax provision changes cited in the Recovery Act.
4
  The Recovery Act mandates that agencies must follow the same laws, principles, procedures, and practices in
awarding contracts with Recovery Act funds as they do with other funds.
5
  The OMB has the primary responsibility for developing Government-wide rules and procedures to ensure funds
are awarded and distributed in a prompt and fair manner; uses of funds are transparent to the public; and steps are
taken to mitigate fraud, waste, and abuse.
6
  The OMB supplemental guidance includes OMB Memorandum M-09-10, Initial Implementing Guidance for the
American Recovery and Reinvestment Act of 2009, dated February 18, 2009, and Memorandum M-09-15, Updated
Implementing Guidance for the American Recovery and Reinvestment Act of 2009, dated April 3, 2009.
                                                                                                            Page 1
                      Previously Reported Acquisition Concerns That Are
                            Relevant to the American Recovery and
                           Reinvestment Act of 2009 Procurements



In addition, the OMB supplemental guidance requires that Federal agencies must:
    •    To the maximum extent practicable, award contracts using Recovery Act funds as
         fixed-price contracts.
    •    Structure acquisitions to result in meaningful and measurable outcomes that are
         consistent with agency plans and that promote the goals of the Recovery Act.
    •    Provide for appropriate oversight of contracts to ensure performance, cost, and schedule
         goals are being met.
In September 2010, the Treasury Inspector General for Tax Administration (TIGTA) issued a
report7 (referred to as trending report) that examined 74 TIGTA reports addressing
IRS procurements during the period Fiscal Year 1999 through June 2009. The audit was
conducted to identify and categorize IRS acquisition issues that were identified in these
TIGTA reports. The report found several repeat recommendations relating to different aspects
of IRS procurements that continued to occur throughout the audit period. For example, in
two different audit reports issued in Fiscal Year 2002, the TIGTA recommended that the IRS use
performance-based contracts8 and firm fixed-price contracts whenever possible. Subsequent to
these reports, the TIGTA issued several additional reports containing similar recommendations.
We noted that these finding trends may also relate to Recovery Act procurements. In accordance
with the OMB guidance to identify high-risk programs and create quicker turnaround reporting,
in this report we are only highlighting the observations that are directly tied to the new
requirements for Recovery Act procurements.
This review was performed at the IRS Office of Procurement in Oxon Hill, Maryland, during the
period April through July 2010. This report includes observations based on a prior report, and no
additional audit work was conducted; therefore, this audit was not conducted in accordance with
generally accepted government auditing standards and was significantly reduced in scope.
Under the Recovery Act, Inspectors General are expected to be proactive and focus on
prevention. We believe this report is responsive to this intent. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.



7
  Procurement Audit Results Indicate Problems Continue to Exist After Corrective Actions Were Implemented
(Reference Number 2010-10-088, dated September 14, 2010).
8
  Performance-based contracting is a method of contracting for which the Government defines the results it is
seeking, rather than the process by which those results are attained. The first benefit of performance-based
contracting is better prices and performance. Second, the Government is released from having to develop detailed
specifications and define the process. Third, the contractor has more flexibility on how it achieves the desired
results. Finally, less day-to-day surveillance is required, and contractors are motivated to be innovative and to save
money.
                                                                                                               Page 2
                      Previously Reported Acquisition Concerns That Are
                            Relevant to the American Recovery and
                           Reinvestment Act of 2009 Procurements




                                        Results of Review

Recurring Audit Findings Could Pose Risks for Recovery Act
Procurements
Based on the prior trending report, the TIGTA found that there were repeat findings or concerns
that are relevant to Recovery Act-funded procurements, including:
    •    The limited use of fixed-price contracts.
    •    The limited use of performance-based contracts.
    •    Inadequate monitoring of the procurements by IRS Office of Procurement Contracting
         Officers and the program offices’ Contracting Officer’s Technical Representatives.
The IRS took corrective actions to address many of these findings when the TIGTA reports were
originally issued. However, the repeat findings and recommendations are an indication that the
corrective actions were not effective.9 The IRS Office of Procurement advised us it has started
new initiatives that address some of the issues and trends presented in the trending report. We
did not perform followup audits on all of the 74 audits discussed in our trending report, nor did
we conduct any additional fieldwork to determine if the IRS effectively implemented the
agreed-upon corrective actions to fully address the identified problems or how the findings might
impact Recovery Act requirements. In their response to the prior report, IRS officials agreed that
increasing both performance-based and firm fixed-price contracting has been challenging over
the past 10 years but added that they have made significant progress in both of these areas and
have identified several new initiatives to address other trends. IRS officials stated that had the
TIGTA performed an analysis of corrective actions implemented in response to past audit
reports, the prior report would more accurately reflect the progress the IRS has made.
The IRS has an increased risk of not complying with the general Federal acquisition
requirements for procurements funded by the Recovery Act if the steps taken did not correct the
reported weaknesses. Until effective internal controls, processes, and practices are implemented,
the IRS will be unable to provide assurance that the Federal Government is receiving the best
value for its Recovery Act procurements or that contractors are meeting the procurements’ terms
and conditions to deliver goods or services in the most cost-effective manner.



9
 Our review did not assess the effectiveness of the corrective actions that did not fall into the three categories
discussed here, so we are not commenting on whether they adequately addressed the reported findings.
                                                                                                                 Page 3
                  Previously Reported Acquisition Concerns That Are
                        Relevant to the American Recovery and
                       Reinvestment Act of 2009 Procurements



Fixed-price contracts

The Recovery Act requires that, to the maximum extent possible, contracts funded under the Act
shall be awarded as fixed-price contracts. The OMB guidance further emphasizes that
fixed-price contracts provide maximum incentive for the contractor to control costs and perform
effectively and impose a minimum burden upon the contracting parties.

The TIGTA reported in Fiscal Year 2002 that the IRS’ use of fixed-price contracts had decreased
and recommended that the IRS use fixed-price contracts whenever possible. The IRS agreed
with this recommendation and implemented corrective actions to address our findings. However,
in Fiscal Year 2005, the TIGTA issued another report addressing the need for the IRS to increase
the use of fixed-price type contracts. While the IRS again agreed to the overall recommendation,
the TIGTA stated that the IRS’ corrective actions would not correct the identified issue. In
Fiscal Years 2007 and 2009, the TIGTA issued two additional reports with similar findings and
recommendations.

Through April 2010, the IRS indicated that 11 (42 percent) of 26 procurements awarded using
Recovery Act funding were awarded as part of fixed-price contracts. Of the 26 Recovery Act
procurements, 24 were contract modifications that added work or funds to existing awards. We
did not review whether these 26 procurements were awarded with the appropriate contract type
but, generally, when fixed-price contracts are not used, there is an increased risk to the Federal
Government that the contract costs are not adequately controlled.

Structuring acquisitions to include quantifiable measures of performance

The OMB supplemental guidance requires that agencies structure acquisitions to result in
meaningful and measurable outcomes consistent with agency plans as well as promoting the
goals of the Recovery Act. The guidance also requires agencies to identify quantifiable
measures of performance with clear and measurable outcomes that include ranges of acceptable
performance. While the OMB supplemental guidance does not specifically require the use of
performance-based contracting, these quantifiable measurement requirements are key elements
of performance-based contracting, and increased use of performance-based contracting would
help meet the intent of the OMB guidance.

In a Fiscal Year 2002 report, the TIGTA recommended that the IRS use performance-based
contracting whenever possible. While the IRS agreed with the recommendation, it did not agree
with the TIGTA’s method for implementing the recommendation. As a result, the IRS did not
implement any corrective actions for this recommendation. In Fiscal Year 2005, the TIGTA
issued a second report containing a similar finding and recommendation. In this instance,
while the IRS did not reject the TIGTA’s recommendation, the TIGTA did not believe that the
IRS’ corrective action was adequate to address the issues noted in the report. Three additional
reports containing similar findings and recommendations were issued since the Fiscal Year 2005
                                                                                            Page 4
                    Previously Reported Acquisition Concerns That Are
                          Relevant to the American Recovery and
                         Reinvestment Act of 2009 Procurements



report. The IRS implemented corrective actions in response to these reports when they were
originally issued and has subsequently instituted additional initiatives.
Through April 2010, the IRS indicated that 9 (82 percent) of 11 eligible Recovery Act contracts
were performance-based. Performance-based contracting increases performance, innovation,
and competition among interested vendors, resulting in a better value for the IRS. The IRS
appears to have mitigated risks associated with non-performance-based contracts for
procurements funded by the Recovery Act. However, we did not evaluate whether these
performance-based contracts meet Recovery Act requirements for quantifiable measures of
performance.

Contract monitoring
The OMB supplemental Recovery Act guidance states that agencies must provide for appropriate
oversight of contracts to ensure outcomes that are consistent with and measurable against agency
plans and goals under the Act. Agencies provide this oversight by assuring that they are able to
appoint sufficient qualified Contracting Officers and Contracting Officer’s Technical
Representatives with certification levels appropriate to the complexity of Recovery Act projects.
In addition, agencies should actively monitor contracts to ensure that performance, cost, and
schedule goals are being met.
We identified several broader trends involving similar findings throughout the procurement
process. Many of the recurring findings relate to inadequate monitoring of the procurements by
Office of Procurement Contracting Officers and the program offices’ Contracting Officer’s
Technical Representatives. Examples of the trends included:
     •   The IRS lacked sufficient monitoring controls or processes to ensure that the contractors
         were meeting the contract terms and conditions. Specifically, the IRS did not verify that
         contractors were sufficiently qualified to perform their duties and that performance levels
         were met.
     •   The IRS failed to ensure that contractors complied with the IRS’ internal procedures and
         processes. These included findings that funding was not properly controlled and project
         costs were not always charged to the appropriate accounting code.
     •   Modernization contracts failed to meet their scheduled completion dates or achieve their
         intended objective and benefits.
In addition to these contract monitoring issues, the TIGTA addressed concerns related to the
Recovery Act and contract administration by Contracting Officer’s Technical Representatives in
a separate report.10 While that report stated that the IRS had begun to implement some of the

10
  Concerns About Contracting Officer’s Technical Representatives That Are Relevant to the American Recovery
and Reinvestment Act of 2009 Procurements (Reference Number 2010-11-087, dated July 23, 2010).
                                                                                                       Page 5
                 Previously Reported Acquisition Concerns That Are
                       Relevant to the American Recovery and
                      Reinvestment Act of 2009 Procurements



recommendations concerning contract administration, the IRS still needed to implement the
remaining recommendations. If the IRS’ contract oversight is not operating effectively,
IRS Recovery Act procurements are at risk that goods and services will not meet the
Government needs at the price and other contract requirements agreed upon.




                                                                                        Page 6
                    Previously Reported Acquisition Concerns That Are
                          Relevant to the American Recovery and
                         Reinvestment Act of 2009 Procurements



                                                                                              Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to provide observations regarding the applicable
procurement trends identified during our prior audit1 that evaluated trends identified from
TIGTA audits of IRS procurements from Fiscal Year 1999 to June 2009 that would also present
a risk for procurements funded under the American Recovery and Reinvestment Act of 2009
(Recovery Act).2 To accomplish the objective, we:
I.      Reviewed the Recovery Act and appropriate implementing guidance to identify all
        applicable requirements for Recovery Act-funded procurements.
II.     Reviewed observations identified during the prior audit to determine which recurring
        findings would also present risks for procurements funded under the Recovery Act and
        the recommendations that would mitigate those risks.
III.    From the IRS Office of Procurement, obtained Recovery Act procurement data to
        identify the number of fixed-price contracts and performance-based contracts. Due to the
        limited scope of this review, we did not conduct any audit testing to ensure the validity of
        these data.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We did not assess internal
controls because doing so was not applicable within the context of our objective.




1
  Procurement Audit Results Indicate Problems Continue to Exist After Corrective Actions Were Implemented
(Reference Number 2010-10-088, dated September 14, 2010).
2
  Pub. L. No. 111-5, 123 Stat. 115 (2009).
                                                                                                        Page 7
                Previously Reported Acquisition Concerns That Are
                      Relevant to the American Recovery and
                     Reinvestment Act of 2009 Procurements



                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Alicia P. Mrozowski, Director
Michelle Philpott, Audit Manager
Darryl J. Roth, Audit Manager
David P. Robben, Lead Auditor
Jessy T. Joseph, Senior Auditor
Brett C. Thornock, Auditor




                                                                                   Page 8
                Previously Reported Acquisition Concerns That Are
                      Relevant to the American Recovery and
                     Reinvestment Act of 2009 Procurements



                                                                 Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Chief, Agency-Wide Shared Services OS:A
Director, Procurement OS:A:P
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief, Agency-Wide Shared Services OS:A:F
       Director, Procurement OS:A:P




                                                                        Page 9
